U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

November 18, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Drew S. Bates v. United States of America,
S.Ct. No. 20-535

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on October 20,
2020, and placed on the docket on October 22, 2020. The government’s response is due on
November 23, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including December 23, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-0535
BATES, DREW S.
USA

DAVID A. O'NEIL
DEBEVOISE & PLIMPTON LLP
801 PENNSYLVANIA AVENUE N.W.
WASHINGTON, DC 20004
202-383-8000
DAONEIL@DEBEVOISE.COM

